`



                                         September 30, 1998

                                         A. KEITH STRANGE
                                         VICE PRESIDENT, PURCHASING AND MATERIALS

                                         Subject: Local Requisition of Cleaning Services

                                         This Management Advisory Report highlights the results of our
                                         review of the United States Postal Service (USPS) policies for
                                         purchasing local cleaning services and offers suggestions for
                                         improvement.

                                         This review was initiated as a result of an allegation of impropriety
                                         concerning cleaning services contracts within USPS facilities.

Objective, Scope and                     The objective of our review was to assess USPS policies for
Methodology                              purchasing local cleaning services and identify areas for
                                         improvement. In conducting our review, we interviewed
                                         appropriate personnel1 and reviewed USPS policies.2 Our review
                                         was conducted between April and August 1998, using the
                                         President’s Council on Integrity and Efficiency Quality Standards
                                         for Inspections.

Results in Brief 
                       Opportunities exist to improve the USPS policy for procuring local
                                         cleaning services. Specifically, policies for cleaning service
                                         contracts under $10,000 could be modified to include contract
                                         terms that are documented and enforceable. Although USPS
                                         personnel are not required to establish a written agreement for all
                                         cleaning service contracts, we believe that an unwritten agreement
                                         presents potential for abuse, by both USPS employees and
                                         contractors.
1
    HQ Purchasing Policies Specialists
2
 USPS Administrative Support Manual 11 (ASM11, March 1996), Purchasing Manual, Procurement Manual
Publication 41, Contracting for Cleaning Services Handbook AS-707D, and Housekeeping Postal Facilities
Maintenance Series Handbook MS-47.




                                             Restricted Information
Cleaning Service Contracts	                                                                   RP-MA-98-002



                                        Without a basic contractual document, controls are not present to
                                        preclude easy fabrication of contractual terms. Thus there is less
                                        deterrent effect on individuals inappropriately negotiating fees not
                                        related to services provided.

Background 	                            Current USPS policies3 do not require written agreements for local
                                        cleaning services contracts. Specifically, under local buying
                                        authority4, no written agreement is required for contracts under
                                        $10,000 for self-employed individuals and under $2,500 for
                                        companies.5

Observations 	                          Opportunities exist for improvement in the USPS policy for
                                        procuring local cleaning services. Although, USPS personnel are
                                        not required to establish a written agreement for all cleaning service
                                        contracts, we believe that an unwritten agreement presents potential
                                        for abuse, by both USPS employees and contractors. The USPS
                                        Mid-Atlantic Area supports over 1,100 active cleaning contracts.


                                                          Category              Contract     Percent
                                                  $1 - $2,500                     300          25
                                                  $2,501 - $10,000                840          70

                                                            Total               1,140          95


                                        Note: Approximately 97 percent of the contract cleaners were self-employed
                                        individuals. Also, approximately 31 percent of the cleaning contracts were
                                        terminated during the first year of performance.6




3
 According to USPS Administrative Support Manual 11 (ASM11, March 1996), contracting authority and methods
are provided in Publication 41, the Procurement Manual (PM) superseded by the current Purchasing Manual). The
PM applies, in part, to all USPS purchasing activities, with the exception of purchases made using the local buying
authority (ASM 511.22, 711.11). Where the PM and Handbook AS-707D vary, the Handbook will govern
(Handbook AS-707D, section 120).
4
 Local buying authority is the authority to buy and pay for day-to-day operational needs, but may not be used to
obtain cleaning services, which requires the use of structured contracts, unless the hire is a self-employed contract
cleaner and the value of the services provided are less than $10,000 per year (ASM713.1(4);ASM 714).
5
 According to USPS Purchasing specialist, no written agreement is required in these situations; however, local
Purchasing and Materials Service Centers can supplement USPS Headquarters regulations, and require
documentation in these instances. Prior to 1993, or thereabouts, all custodial contracts were procured through the
use of “structured contracts” under the requirements of Publication 41 (see ftnt 3 citations, supra). During 1994, a
determination was made by USPS Headquarters, under the Cleaning Services Simplification Initiative spearheaded
by PMG Runyon, that even a one page cleaning agreement would not be required.
6
    Figures reflect the Greensboro test project, Cleaning Services Test Initiative, 1994.


                                              Restricted Information                                                    2
Cleaning Service Contracts	                                                  RP-MA-98-002




                              For the 1,100 cleaning service contracts, individual contractors
                              were the primary source for cleaning services. Furthermore, the
                              majority of cleaning service contracts were longer than one year in
                              length. Due to the continuation of most cleaning service contracts,
                              any questionable arrangements have the potential to continue
                              indefinitely. Thus, without a basic contractual document, controls
                              are not present to preclude easy fabrication of contractual terms.

                              In addition, not identifying who will actually perform the cleaning
                              services can lead to a serious breach of security, as cleaning service
                              personnel usually have access to the entire Postal Service facility.


Suggestions 
                 We suggest that the Vice President, Purchasing and Materials,
                              ensure that an appropriate contractual document is developed and
                              used for local purchase authority for contract cleaning service. As
                              a minimum, the document should include the following basic
                              terms:

                                 1. 	 Parties to the contract
                                 2. 	 Scope of cleaning service, including the identities of
                                      individuals performing the cleaning services
                                 3. 	 Payment amounts and arrangements

Management                    The Vice President, Purchasing and Materials, provided an interim
                              response agreeing there was a need to review and revisit the policy
Comments                      permitting local postal management to enter into handshake
                              agreements for cleaning services. He concluded that it was
                              necessary for management to gather more information to allow for
                              a balanced assessment of the situation before initiating any
                              significant policy or procedural changes related to the local
                              purchase of cleaning services. The Vice President stated that
                              returning to a more formalized way of purchasing cleaning services
                              may not be an option because it would cause a significant work
                              load shift and significantly increase the cost of soliciting, awarding,
                              and administering the purchase of cleaning services.
                              Management’s verbatim comments are included on page 5 of this
                              report.

Evaluation of                 Management’s comments are generally responsive to our
                              suggestions. The current “handshake” policy of reducing the
Management                    administrative burden associated with the purchase of cleaning
Comments                      services contracts has been a useful and important response to the
                              prior time-consuming solicitation and award process. While
                              recognizing the significant advantages associated with the
                              “handshake” policy, the OIG recommends, not a return to the “old

                                  Restricted Information                                          3
Cleaning Service Contracts                                                RP-MA-98-002




                             way of purchasing”, but a minimal written record of the basic terms
                             of an agreement. Such a basic document, which can be one page in
                             length and which can be signed and administered by the local
                             postmaster, allows for a written record to be referenced should the
                             need arise to determine the original terms of an agreement.

                             The alleged impropriety may or may not have been an isolated
                             incident. The importance of the alleged impropriety was not to
                             determine whether the problem was widespread, but rather, that it
                             showed a basic weakness in a system that may not allow for a
                             reference to a document if no document is required. With a written
                             document, the Postal Service is in a better position to make
                             judgements regarding the nature of any transaction after the fact,
                             and is thus protected. A basic written contract, administered at the
                             local level, provides empowerment to the local postal officials
                             while protecting the Postal Service, as well as the supplier, from
                             potential variances in agreements.

                             If you have any questions, please contact               , or me at
                             (703) 248-2300.



                             Sylvia L. Owens
                             Assistant Inspector General
                             Revenue/Cost Containment

                             cc:




                                   Restricted Information                                     4
Cleaning Service Contracts                            RP-MA-98-002




                             Restricted Information                  5
Cleaning Service Contracts                            RP-MA-98-002




                             Restricted Information                  6
Cleaning Service Contracts                              RP-MA-98-002




Major Contributors to the Report:




                               Restricted Information                  7
